    September 29, 2006




Acquisition
Commercial Contracting for the Acquisition
of Defense Systems
(D-2006-115)




             Department of Defense
            Office of Inspector General
 Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
FAR                   Federal Acquisition Regulation
FASA                  Federal Acquisition Streamlining Act
GAO                   Government Accountability Office
IG                    Inspector General
HMMWV                 High Mobility Multi-Purpose Wheeled Vehicle
TACOM                 Tank-Automotive and Armaments Command
               Department of Defense Office of Inspector General
Report No. D-2006-115                                                 September 29, 2006
   (Project No. D2005-D000AB-0203.000)

                Commercial Contracting for the Acquisition of
                             Defense Systems

                                 Executive Summary

Who Should Read This Report and Why? Acquisition and contracting personnel
within DoD and the Military Departments should read this report because it addresses
matters that should be considered when making determinations that items are commercial
and awarding contracts to obtain commercial items.

Background. The Federal Acquisition Streamlining Act of 1994 (Public Law 103-355,
October 13, 1994) establishes a statutory preference for commercial items and the
procedures to be used when acquiring commercial items. The act has enabled the
Government to have maximum access to competitive commercial markets and to
commercial technologies. In addition, it simplifies the process for acquiring goods and
services, with the intention of reducing acquisition costs. Finally, it provides the
framework for a revision of Part 12 of the Federal Acquisition Regulation.

Section 4201 of the National Defense Authorization Act for Fiscal Year 1996 (Public
Law 104-106, February 10, 1996) amended the commercial item exception to the
requirement that contracting officers obtain certified cost or pricing data to substantiate
price reasonableness determinations. This amendment broadened the exception to apply
to all commercial items. Previously, it applied only to those commercial items for which
there was an “established catalog or market price” through sales “in substantial quantities
to the general public.”

The commercial item definition is broad. In general, goods can be obtained as
commercial items if they are not real property and have been sold, or offered for sale, to
the general public or to nongovernmental entities for nongovernmental purposes. In
addition, the definition includes items that are not yet available in the commercial market
but will be available in time to satisfy the Government’s delivery requirements. The
commercial item definition also includes items that have modifications of a type
available in a commercial marketplace or minor Government-unique modifications that
will not alter the nongovernmental function of the commercial item. Finally, the
commercial item definition includes services if the services are being provided to support
an item that has been designated commercial and similar services are being provided to
the general public and the Government at the same time under similar terms and
conditions.
Results. This audit included 86 contract actions on 42 DoD contracts for commercial
items issued during FYs 2003 and 2004. The value of these actions was approximately
$4.4 billion and each action reviewed was awarded for $15 million or more. Contracting
officials did not adequately justify the commercial nature of 35 of 42 (83 percent)
commercial contracts for defense systems and subsystems awarded in FYs 2003 and
2004. As a result, contracting officials inappropriately awarded contracting actions that
did not achieve the benefits of buying truly commercial products and relinquished price
and other oversight protections under the Truth in Negotiations Act that would have
allowed better visibility to establish fair and reasonable prices.

Management Comments and Audit Response. The Under Secretary of Defense for
Acquisition, Technology, and Logistics nonconcurred with the recommendation to
instruct contracting officers to only determine items to be commercial when sufficient
commercial sales history to the general public is provided. The Under Secretary of
Defense for Acquisition, Technology, and Logistics stated that this was not within the
realm of the law which only requires items to be offered for sale, lease, or license to the
general public. The Under Secretary of Defense for Acquisition, Technology, and
Logistics also disagreed that cost or pricing data should be obtained when commercial
sales history is not available citing that this was prohibited by section 2306a (b), title 10,
United States Code. We believe the commercial item definition is broad and has allowed
contracting officials to award contracts for defense systems and subsystems that had no
commercial market. To limit this misuse of the definition and to gain more control in
ascertaining fair and reasonable prices restriction should be placed on the commercial
item exception found in section 2306a (b), title 10, United States Code by requiring that
commercial items be sold in substantial quantities to the general public to qualify for
exemption from submittal of certified cost or pricing data. As a result, we have revised
Recommendation 1 to have the Under Secretary of Defense for Acquisition, Technology,
and Logistics propose a legislative change to the exception requirement. The Under
Secretary of Defense for Acquisition, Technology, and Logistics concurred with the
recommendation to require contracting officials to document their decisions to award
commercial contracts. We request that the Under Secretary of Defense for Acquisition,
Technology, and Logistics provide comments on the final report by October 30, 2006.




                                              ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  3

Review of Internal Controls                                                 3

Finding
     Military Departments Use of Commercial Acquisition Procedures           5

Appendixes
     A. Scope and Methodology                                               14
     B. Prior Coverage                                                      15
     C. Contract Actions Reviewed and Audit Results                         16
     D. Examples of Major Defense Acquisition Programs Acquired as
          Commercial Items                                                  21
     E. Report Distribution                                                 30


Management Comments
     Under Secretary of Defense for Acquisition, Technology and Logistics   32
Background
    This audit was initiated as a result of issues identified in prior DoD Inspector
    General (IG) audits related to the acquisition of commercial items. Specifically
    this report addresses the application of the Federal Acquisition Regulation (FAR)
    when acquiring defense systems and subsystems.

    Federal Acquisition Streamlining Act of 1994. The Federal Acquisition
    Streamlining Act of 1994 (Public Law 103-355) (FASA) was signed into law on
    October 13, 1994. FASA establishes a statutory preference for commercial items
    and establishes the procedures to be used when acquiring commercial items.
    FASA has enabled the Government to have maximum access to competitive
    commercial markets and to commercial technologies. In addition, FASA
    simplifies the process for acquiring goods and services, with the intention of
    reducing acquisition costs. Finally, FASA provides several guidelines for
    acquiring commercial items and services, all of which have been incorporated
    into FAR Part 12, “Acquisition of Commercial Items.”

    Clinger-Cohen Act of 1996. Sections 4001 through 4402 and sections 5001
    through 5703 of the National Defense Authorization Act for Fiscal Year 1996
    (Public Law 104-106, February 10, 1996), as amended, are collectively known as
    the Clinger-Cohen Act of 1996. Section 4201 of the Clinger-Cohen Act amends
    the commercial item exception to the requirement that contracting officers obtain
    certified cost or pricing data to substantiate price reasonableness determinations.
    The amendment broadens the exception to apply to all commercial items. Prior to
    this amendment, the commercial item exception only applied to those items for
    which there was an “established catalog or market price” through sales “in
    substantial quantities to the general public.” This change made it easier to justify
    items as commercial even when a commercial market had not been established.

    Under Secretary of Defense Goals. The Under Secretary of Defense for
    Acquisition and Technology issued a commercial acquisition policy
    memorandum on January 5, 2001, that established two goals. The first goal was
    for each Military Department and Defense agency to double the value of FAR
    Part 12 contract actions awarded by FY 2005, using FY 1999 as the baseline. The
    second goal was for the Military Departments and Defense agencies to increase
    the number of FAR Part 12 commercial contract actions to 50 percent of all
    Government contracts awarded by the end of FY 2005.
    Commercial Item Defined. As defined in the FAR, a commercial item can be an
    item other than real property that has been sold, or offered for sale, to the general
    public; an item that is based on evolving technology that is not yet available in the
    commercial marketplace, but that will be available in time to satisfy the
    Government’s requirement; an item that requires modifications that are usually
    available in the marketplace; or an item that requires minor modifications of a
    type not customarily available in the commercial marketplace that meet
    Government requirements and do not alter the nongovernmental function or
    physical characteristics of the commercial item. A commercial item can also be a
    nondevelopmental item that has been developed at private expense, and that is
    sold to multiple State and local governments.


                                          1
Services can be acquired as commercial items when they are provided in support
of goods acquired as commercial items. Services that are unrelated to commercial
items, but that are offered for sale, or are sold competitively in substantial
quantities in the commercial marketplace, can also be acquired by the
Government under the regulations of FAR Part 12.

Commercial Item Handbook. The Under Secretary of Defense for Acquisition,
Technology, and Logistics issued the Commercial Item Handbook (the
Handbook) in November 2001, to provide guidance on acquiring commercial
items. The Handbook provides clarification on the commercial item definition
and provides details on the commercial item acquisition process, including
conducting market
research, making commercial item determinations, and conducting price analysis.
The Handbook also provides samples of a commercial item checklist and a market
research report that contracting officials can use to determine whether commercial
items are available to meet the Government’s needs. Lastly, the Handbook
provides contracting officials with examples of documented evidence that should
be included in the contract files to support their decisions to award contracts for
commercial items.

Recent Legislation. The Ronald W. Reagan National Defense Authorization Act
for Fiscal Year 2005, Section 818, “Submission of Cost or Pricing Data on
Noncommercial Modifications of Commercial Items,” (Public Law 108-375)
states,
       (a) INAPPLICABILITY OF COMMERCIAL ITEMS EXCEPTION
       TO NON-COMMERCIAL MODIFICATIONS OF COMMERCIAL
       ITEMS.—Subsection (b) of section 2306a of title 10, United States
       Code, is amended by adding at the end the following new paragraph:

            (3)  NONCOMMERCIAL                     MODIFICATIONS           OF
       COMMERCIAL ITEMS.—

                       (A) The exception in paragraph (1)(B) does not apply
       to cost or pricing data on noncommercial modifications of a
       commercial item that are expected to cost, in the aggregate, more than
       $500,000 or 5 percent of the total price of the contract, whichever is
       greater.

       ...

       (b) EFFECTIVE DATE AND APPLICABILITY.—Paragraph (3) of
       section 2306a of title 10, United States Code . . . shall take effect on
       June 1, 2005, and shall apply with respect to offers submitted, and to
       modifications of contracts or subcontracts made, on or after that date.

Recent DoD IG Reports. The DoD IG issued two reports in 2004 that identified
inappropriate commercial acquisition strategies for defense systems.

DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
Aircraft,” March 29, 2004, states that the Air Force plan to lease Boeing
KC-767A tanker aircraft did not meet the statutory definition of a commercial


                                          2
           item. No commercial market existed through which contracting officials could
           establish reasonable prices by the forces of supply and demand.

           DoD IG Report No. D-2004-102, “Contracting for and Performance of the C-130J
           Aircraft,” July 23, 2004, states that the Air Force used an unjustified commercial
           item acquisition strategy to acquire the C-130J aircraft and, further, that the Air
           Force conditionally accepted 50 aircraft at a cost of $2.6 billion even though none
           of the C-130J aircraft met commercial contract specifications or operational
           requirements. The Air Force used a commercial acquisition strategy for this
           acquisition even though no commercial version of the plane existed and sales of
           the C-130J were for Government programs.


Objectives
           Our overall audit objective was to determine whether contracting officials were
           complying with FAR Part 12 when acquiring defense systems and subsystems.
           Specifically, we evaluated the market research conducted by the contracting
           offices, the justifications used to determine that systems or subsystems met the
           commercial item criteria, and the basis for establishing price reasonableness. We
           also evaluated the management control program as it related to the overall audit
           objective.

           See Appendix A for a discussion of the scope and methodology and Appendix B
           for prior coverage related to the objectives.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls. 1
           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of management controls as they applied to the audit objective.




1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40 was reissued on January 4, 2006 as “Manager’s Internal Control (MIC) Program
    Procedures.”



                                                    3
Because we did not identify any material weaknesses, we did not assess
management’s self-evaluation.

Adequacy of Management Controls. The management controls we reviewed
were adequate; we identified no material management control weaknesses.




                                   4
                     Military Departments Use of Commercial
                     Acquisition Procedures
                     Contracting officials did not adequately justify the commercial nature of
                     35 of 42 (83 percent) 2 commercial contracts for defense systems and
                     subsystems awarded in FYs 2003 and 2004. This occurred because
                     contracting officials:

                         •    used loopholes in the broad commercial item definition to justify
                              acquiring defense systems and subsystems without determining
                              that a commercial market exists, and

                         •    misapplied the commercial item definition to fit their acquisition
                              situation and otherwise did not document their rationale for using
                              commercial item acquisition procedures.
                     As a result, contracting officials inappropriately awarded contracting
                     actions that did not achieve the benefits of buying truly commercial
                     products and relinquished price and other oversight protections under the
                     FAR that would have allowed better visibility to establish fair and
                     reasonable prices.


Use of Commercial Item Definition
            Contracting officials for the Army, Navy, and Air Force used FAR Part 12,
            “Acquisition of Commercial Items,” to acquire defense systems and subsystems.
            We reviewed 86 contract actions on 42 contracts (each awarded in amounts
            greater than $15 million) to acquire these systems and subsystems during FYs
            2003 and 2004. (See Appendix C for a listing of the 86 contract actions
            reviewed.) Based on our review, 35 of the 42 contracts (83 percent) should not
            have been awarded using commercial acquisition procedures because the defense
            systems and subsystems did not meet the commercial item definition or did not
            represent a true commercial product. Commercial item determinations normally
            are made prior to the award of a contract. However, contracting officials issued
            modifications and delivery orders while using the original commercial item
            determination. The table shows the number and value of contracts awarded and
            the number and value of contracts that were inadequately justified, summarized
            by Military Department.




2
    The percentage is not to be used as a projection against the total population of commercial contracts
     awarded in FYs 2003 and 2004. This percentage reflects the contracts we judgmentally selected for
     review.



                                                        5
                    Summary of Commercial Contracts Reviewed

                                              Inadequately
                Awarded       Value            Justified       Value       Percent
                Contracts    (millions)        Contracts     (millions)   Contracts

    Army            17        $2,157              13          $1,827        76.5
    Navy             8           342               7             311        87.5
    Air Force       17         1,891              15           1,362        88.2
     Total          42        $4,390              35          $3,500        83.3



Benefits of Buying Commercial Items
    When contracting officials are developing an acquisition strategy, they should
    perform market research to identify items that are available in a commercial
    marketplace that will satisfy the requirements of the program. Buying
    commercial products eliminates the need to develop costly and time-consuming
    military specifications to satisfy DoD needs when an item is already available in
    the commercial marketplace. By choosing to purchase items that are readily
    available, the Government obtains the benefits of state-of-the-art technology and
    products while saving on the limited financial resources for research and
    development. A primary benefit of buying commercial items is the establishment
    of a market price through sales to the general public. In these cases, the
    Government does not have to go through the time-consuming process of
    establishing fair and reasonable prices by other means. Another benefit of
    acquiring commercial items is the integration of the defense and commercial
    industrial bases, which is beneficial for the Nation’s security and economy, and
    that, in the end, results in spending taxpayer dollars in a prudent manner. Other
    benefits of buying commercial items include a reduced risk associated with
    developing new items, more rapid deployment, proven capability, and increased
    competition.


Military Departments Interpretation of Commercial
  Item Definition
    Contracting officials for the Military Departments used the broad commercial
    item definition to justify acquiring defense systems and subsystems that did not
    achieve the benefits of buying truly commercial items. Buying inadequately
    justified commercial items without receiving any of the associated benefits
    outlined above achieves nothing for the Government. Contracting officials also
    misused the commercial item definition to acquire defense systems or subsystems.



                                          6
Broad Commercial Item Definition. The commercial item definition is broad
and includes items that are of a type customarily used by the general public or
nongovernmental entities, items that are offered for sale, and items that have
modifications of a type available in a commercial marketplace or that have minor
Government-unique modifications. Contracting officials for the Military
Departments have used loopholes within these broad categories without adequate
justification to support the availability in the commercial marketplace for these
defense systems and subsystems. Justifying items that do not provide readily
available technology and have no established commercial market does not
provide the benefits that the Government is trying to achieve from making these
acquisitions.

        Acquiring “Of a Type” Items. The commercial item definition states
that a commercial item can be any item of a type (or similar to) customarily used
by the general public. This allows contracting officials to award commercial
contracts for items that are similar to what is sold in a commercial market.
Contracting officers used this portion of the broad definition to justify an item to
be similar to a commercial item. For example, two contract actions awarded for
V-22 aircraft engines were not adequately justified within the commercial item
definition. Modifications P00091 and P00102 to contract N00019-95-C-0209
were awarded to acquire engines for the V-22 Osprey aircraft. The total value of
these two contract actions was $93.2 million. The engines were determined to be
commercial because they were considered to be items similar to engines sold in a
commercial market. The contracting officer stated that the V-22 engines were
90 percent common to engines sold in the commercial market. However, the
contract files did not contain enough evidence to support the 90 percent similarity
to engines being sold to the general public, or that the stated 10 percent difference
did not materially affect the nature or cost of the item. Without adequate
justification of the 90 percent it is impossible to determine whether the V-22
engines are of a type and truly similar to the commercial versions. (For
information related to the V-22 Osprey aircraft and engines, see Appendix D.)

         Offered and Available For Sale. Based on the current law, an item does
not have to be sold in substantial quantities; in fact, it does not have to be sold at
all to be considered a commercial item. When FASA was implemented in 1994,
commercial items had to be sold in substantial quantities to the general public in
order to qualify for the commercial item exception to the Truth in Negotiations
Act requirements. Having sales in substantial quantities provides an appropriate
basis to establish a fair and reasonable price, one of the primary benefits of
issuing a contract for commercial items. The Clinger-Cohen Act of 1996
broadened the commercial item exception to include items that are merely offered
for sale to the general public. It also broadened the exception to include items
that were not yet available in the commercial market, but that would be in time to
satisfy the Government’s delivery requirements. Contracting officers relied on
this part of the definition to justify that items were commercial if they were
offered for sale to the public. They also relied on this part of the definition to
justify that items would be available in the future without supporting that a
proven commercial market existed. Air Force contracting officials used this
portion of the definition to award four contract actions for the Joint Primary
Aircraft Training System during FYs 2003 and 2004. According to contracting
officials, the commercial version of this aircraft existed on paper in the form of


                                      7
          drawings and specifications. The Joint Primary Aircraft Training System was
          considered to be commercial because the drawings and specifications constituted
          the aircraft being available for sale without establishing interest from the
          commercial market for this system. Since the commercial version of the aircraft
          only existed on paper, the Government received no benefit from the commercial
          designation and did not obtain proven capabilities or market-established pricing.
          (See Appendix D for information regarding the Joint Primary Aircraft Training
          System.)

                  Modified Commercial Items. When items that are available in the
          commercial marketplace cannot meet DoD needs, contracting officials have the
          authority to acquire items that either have modifications or can be modified from
          the commercially available item. The commercial item definition includes
          two types of modifications:

              •   modifications of a type available in a commercial marketplace, and

              •   minor modifications of a type not customarily available in the commercial
                  marketplace that meet Government requirements and do not alter the
                  nongovernmental function or physical characteristics of the commercial
                  item.

          Contracting officials at the Army’s Tank-automotive and Armaments Command
          (TACOM) issued $1.3 billion worth of commercial contract actions during
          FYs 2003 and 2004. They used FAR Part 12 procedures to acquire various
          versions of the High Mobility Multi-purpose Wheeled Vehicle (HMMWV).
          They consider the HMMWV to be equivalent to the Hummer® H1, which is sold
          to the general public. The contractor developed the HMMWV at the
          Government’s expense several years before the commercial variant was
          developed. An extensive amount of work is required to convert the military
          HMMWV to the commercial HUMMER® H1 sold to the general public,
          including adding a roof, doors, windows, air conditioning, and insulation for both
          sound and heat.
          In addition, the contractor’s Web site clearly states that the HMMWV is not
          available for sale to the general public:
                  The HUMVEE® 3 was designed for a military mission and was not
                  designed to meet civilian safety standards. [The contractor] does not
                  endorse nor support the sales of military vehicles to the general public
                  or private entities. [The contractor] further opposes any use of these
                  military vehicles by individuals or entities outside the military context
                  for which the vehicles are designed. [The contractor] does not sell
                  military vehicles or service parts for military vehicles to the general
                  public.

          (For additional information regarding the various commercial contracts related to
          the HMMWV program, please refer to Appendix D.)

3
    The HMMWV, pronounced HUMVEE®, refers to the military vehicle. The HUMMER® H1 is the
     commercial vehicle.



                                                     8
Using the term “modified commercial items” and the more nebulous
“modifications of a type available in a commercial marketplace” broadens the
universe of what can be bought under commercial acquisition procedures but does
not provide the associated benefits. The definition states that contracting officials
should consider the value and size of modifications when determining whether a
commercial item contains minor modifications. The commercial item definition
does not quantify the term “minor” and allows broad discretion to the contracting
officer to make this determination. Contracting officials frequently stated that the
defense systems and subsystems that they acquired contained minor Government-
unique modifications, but failed to provide evidence that compared the
characteristics of the commercial item and the military item. For example,
modification P00014 to contract F33657-02-C-0017 obligated funding for lease
and insurance costs related to two C-40 aircraft for FY 2004. The contracting
officer considered the C-40 series of aircraft to be commercial items because they
are modified versions of the commercial 737-700 Business Jet. However,
evidence in the contract file showed that the communications systems were
enhanced, seats were removed, the lavatories were upgraded, and the tail of the
aircraft was modified to accommodate additional space in the crew rest area. The
contracting officer did not document how the modifications to C-40s were minor.
In addition, the contracting officer did not document the extent of the
modifications that would be required to convert the commercially available
737-700 Business Jet into the militarized C-40 aircraft. Without such a
comparison, it is difficult, at best, to determine whether the modifications were
indeed minor.

Use of the Commercial Item Definition. In addition to taking broad discretion
with the definition, in some cases contracting officials misapplied the commercial
item definition to consider items to be commercial. Contracting officials awarded
commercial contract actions for defense systems and subsystems that were sold
only to other foreign governments for military purposes. The contracting officials
considered these acquisitions to be sales to the general public. Also, contracting
officials awarded commercial contract actions for logistical support and training
services for various aircraft. The services were determined to be commercial
because the aircraft the services supported were designated as commercial items.
However, the designation of the aircraft as commercial was unjustified.
Contracting officials also determined that items were commercial because the
overall system included integrated off-the-shelf items that were combined to form
the system.
During FY 2003, the Air Force issued modification P00050 to contract F04701-
00-C-0011. The contracting office issued this modification to exercise the option
for the third Wideband Gapfiller Satellite. The modification was valued at
$150 million. The contracting officer’s justification for awarding this as a
commercial contract was that the function of the satellite and not the satellite
itself was a commercial item. The commercial item definition does not state that
an item is commercial based on the function it provides. The contracting officer
did not determine that there would be a commercial market for this item. In
addition, if an item is to provide commercial benefits, it should provide available
state of the art technology as well as be available for rapid deployment. The
launch of the first satellite is at least 2 years behind its initial scheduled date and
is not


                                       9
scheduled to take place until June 2007. (For additional information regarding
the Wideband Gapfiller Satellite, see Appendix D.)

        Nongovernmental Entity. FAR 2.101, “Definitions,” clearly states that a
commercial item is an item that is used by the general public or by
nongovernmental entities for purposes other than Government purposes.
Contracting officers have misused the term nongovernmental entities and
determined nongovernmental entities to include any government entity outside
the United States. For example, the Air Force issued contract F19628-03-C-0043
to acquire the MPN-14K radar system on behalf of the Government of Taiwan.
The contracting officer stated that the MPN-14K had been sold to the South
Korean and Turkish governments and considered these sales to be commercial
sales even though this radar system is unique to the military. As a result of not
providing legitimate commercial sales, the government did not receive the benefit
of a fair and reasonable price established by a commercial market.

        Services. Contracting officials have misused the definition to award
commercial contract actions for services based on their association with
previously justified commercial items. The commercial item definition does
include services, if the services are being provided to support an item that has
been designated commercial and similar services are provided to the general
public and the Government at the same time under similar terms and conditions.
Contracting officials have awarded contracts for services without properly
designating that the item the service was supporting was commercial. For
example, the Air Force issued modification P00097 to contract F33657-00-C-
0118 for logistical support and training efforts for the C-130J aircraft. The
contracting officer considered these services to be commercial because the
C-130J had been acquired as a commercial item. DoD IG Report D-2004-102
concluded that the commercial classification of the C-130J was flawed and
unsupported. Therefore, any justification to consider associated services
commercial based on supporting the aircraft would also be flawed. The
contracting officer made no attempt to show that similar services were also
provided to the general public. (For additional information regarding the various
commercial contract actions related to the C-130J aircraft, see Appendix D.)
        Commercial Off-the-Shelf. Contracting officials have used FAR Part 12
acquisition procedures and justified defense systems and subsystems as
commercial items because the system was composed of commercial off-the-shelf
products. For example, the Air Force issued six contract actions to acquire the
Theater Deployable Communications system. While the components that make
up the end unit may be commercial, this did not provide justification that the end
unit was commercial. According to contracting officials, the Internet servers,
switches, and routers that make up the system are items that are readily available
in the commercial market. However, when assembled, the commercial off-the-
shelf products become one collective unit that was not commercial. There is no
single company that provides the end unit in its entirety for the commercial
market nor were there any documented commercial sales of the end unit to
establish a fair and reasonable price. The contracting officer needs to make the
justification of an item as commercial based on the totality of the product.




                                    10
Commercial Item Determination. Out of the 35 commercial contracts that were
inadequately justified, 18 had no documented rationale to justify the commercial
classification of the defense systems and subsystems being procured. Contracting
officials are not required to document their decisions to use FAR Part 12. In our
opinion they should document their decisions to use FAR Part 12 and include
supporting evidence in the contract file. Our opinion is supported by the
Commercial Item Handbook, which provides contracting officials with examples
of documented evidence that should be included in the contract file to support
their decisions to award commercial item contracts. Some contracting officials at
the Aeronautical Systems Center did not document their decisions to use FAR
Part 12. They believed that because they were part of the Commercial Derivative
Systems Squadron they were excluded from documenting their rationale to use
FAR Part 12. They stated that everything acquired by that division was
commercial. For example, they awarded contract F33657-03-C-2051 to acquire
an E-10A aircraft. There was no documentation in the contract file as to how the
E-10A was considered to be commercial. The documentation in the contract files
only provided evidence that the E-10A was a 767-400ER, which is a commercial
aircraft sold by The Boeing Company. Without documented evidence, we cannot
determine that the E-10A is a commercial item as defined by FAR Part 2.101. To
further compound the problem, the contracting officer used research and
development funding to acquire the E-10A. Contracting personnel concluded that
using research and development funding for this acquisition was appropriate
because the E-10A would be used as a research test bed. We believe this is
inappropriate when procuring items that are truly commercial. By spending
research and development resources on items that are purportedly available in the
commercial marketplace, DoD does not get the benefits of readily available
technology in the commercial marketplace and does not save scarce research and
development funds.

Price Reasonableness Determination. The contracting officer has the
responsibility to ensure that commercial items are bought at fair and reasonable
prices. Contracting officials are prohibited from obtaining certified cost or
pricing data when contracting for commercial items. Instead contracting officials
should rely on market-based pricing supported by evidence of commercial sales to
determine fair and reasonable prices. When making price reasonableness
determinations for commercial items, contracting officials are limited to the
amount of cost data that can be obtained from the contractor to support their
determination. For example, the Navy awarded contract action N00019-01-C-
0071 P00016 to procure the seventh C-40 aircraft. The contracting officer did not
obtain evidence from the contractor to prove the item had been sold to the general
public. This information could have been used to make a price reasonableness
determination. The contracting officer only had access to aircraft prices
published on the contractor’s Web site. The fact that a price exists on a
contractor’s Web site or in a catalog does not ensure a fair and reasonable price.
FAR Part 13.106-3, “Award and Documentation,” states that inclusion of a price
in a catalog does not in and of itself establish fairness and reasonableness of the
price. If the contracting officer had sales data or cost or pricing data, a reasonable
price could have been negotiated for the seventh aircraft, as well as for future
aircraft buys such as the eighth C-40 aircraft procurement in FY 2004 under
P00021 of the same contract.



                                     11
Conclusion
    Contracting officials for the Military Departments awarded $3.5 billion in
    commercial procurements for defense systems and subsystems that were not
    supported by documentation that justified a commercial procurement. DoD did
    not receive the benefits of readily available commercial technology, competitive
    prices established by the commercial marketplace, or the other benefits that would
    normally be associated with acquiring commercial items. Instead, the
    Government relinquished its right to cost or pricing data and other oversight
    procedures contained in the Federal Acquisition Regulation.

    Contracting officials are prohibited from obtaining certified cost or pricing data
    when they use FAR Part 12 commercial acquisition procedures. By awarding
    these as commercial actions, contracting officials limited their ability to ensure
    that fair and reasonable prices were paid on these contract actions.

    The Government lost oversight and control over the development and quality of
    the defense systems and subsystems when it awarded commercial contract
    actions. In addition, the Government’s rights were compromised because it had
    no access to contractor facilities to monitor and inspect products prior to the
    product’s delivery.


Recommendations, Management Comments and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation 1 for the Under Secretary of Defense for Acquisition,
    Technology, and Logistics to propose a legislative change to the commercial item
    exception.

    We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

            1. Propose a legislative change to amend Section 2306a (b), title 10,
    United States Code to state that the commercial item exception to submission
    of certified cost or pricing data shall only apply for the acquisition of
    commercial items that are sold in substantial quantities to the general public.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics nonconcurred with the original recommendation. The
    Under Secretary of Defense for Acquisition, Technology, and Logistics stated that
    the definition of a commercial item found in Part 2.101 of the Federal Acquisition
    Regulation does not require sufficient sales to the general public for an item to be
    considered a commercial item. Part 2.101 of the commercial item definition only
    requires that items be offered for sale, lease, or license to the general public. He
    stated that Section 2306a (b), title 10, United States Code, prohibits the requiring
    of cost and pricing data for commercial item acquisitions.



                                         12
Audit Response. We recognize that the commercial item definition only requires
that items be offered for sale, lease, or license to the general public. This has
been the requirement for commercial items since its inception in 1994 with the
Federal Acquisition Streamlining Act. However, originally exceptions from the
submission of certified cost or pricing data only applied to items sold in
substantial quantities to the general public. The intent of our original
recommendation was to provide a basis to restrict the misuse of the broad
commercial item definition. Our report provides instances in which the items
procured under the broad definition did not provide an adequate basis for price
reasonableness or were inappropriate because no commercial market existed.
Buying items commercially should provide the government assurance that it is
buying products that are readily available in the marketplace at a fair and
reasonable price that is established through sales to the general public. Our
revised recommendation will continue to allow flexibility to consider items with
no proven commercial market to be considered commercial for whatever purpose
it serves, but will restrict the certified cost or pricing exception to items with a
proven commercial market. As a result we have revised Recommendation 1. We
request that the Under Secretary of Defense for Acquisition, Technology, and
Logistics provide comments on Recommendation 1 by October 30, 2006.

      2. When commercial item determinations are made, these
determinations should be in writing and included in the contracting file.

Management Comments. The Under Secretary of Defense for Acquisition,
Technology, and Logistics concurred and stated that a Defense Procurement and
Acquisition Policy letter would be issued within the next sixty days requiring a
written determination that the commercial item definition has been met for
acquisitions exceeding $15 million.

Audit Response. The Under Secretary of Defense for Acquisition, Technology,
and Logistics comments conform to requirements and no additional comments are
required.




                                     13
Appendix A. Scope and Methodology
   We performed this audit from May 2005 through July 2006 in accordance with
   generally accepted government auditing standards.

   We identified a universe of 175 contract actions valued at $8.4 billion. From this
   universe we excluded contract actions used to acquire spare parts and services, as
   well as fuel and other commodities which did not constitute “defense systems.”
   In a few, limited cases, we did review contract actions issued to acquire these
   items, but only when they were related to an item that was considered to be a
   “defense system.” During this audit, we judgmentally selected remaining high
   dollar actions including 86 contract actions related to 42 contracts to acquire
   defense systems. The values of these actions totaled $4.4 billion. We defined a
   contract action to be a basic contract, a delivery order, or a modification to either
   a basic contract or delivery order. The actions selected for review were each
   valued at $15 million or more.

   We reviewed contracts and such supporting documentation as commercial item
   determinations, price negotiation memorandums, market research reports, and
   sole-source justifications and approvals. The documents reviewed dated from
   October 1994 through April 2005. In addition, we interviewed contracting
   officers, their managers, and other officials within contracting offices.

   Use of Computer-Processed Data. We queried the individual contract action
   reporting (DD 350) databases for FYs 2003 and 2004 to determine the universe of
   commercial contract actions issued during those years to acquire defense systems.
   We judgmentally selected contracts based on these queries, and then traveled to
   various contracting offices to review the files for each selected contract.

   We compared the information obtained through queries of the individual contract
   action reporting (DD 350) databases with the information contained in the
   contract files at the various sites visited, and found no significant discrepancies.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office (GAO) has identified several high-risk areas in DoD. This
   report provides coverage of the Weapons Systems Acquisition and Contract
   Management high-risk areas.




                                        14
Appendix B. Prior Coverage
    During the last 5 years, GAO and the DoD IG have issued seven reports
    discussing commercial contracting practices. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-02-502, “DoD Needs Better Guidance on Granting
    Waivers for Certified Cost and Pricing Data,” April 22, 2002


DoD IG
    DoD IG Report No. D-2006-093, “Contracting and Funding for the C-130J
    Aircraft Program,” June 21, 2006

    DoD IG Report No. D-2006-075, “Acquisition of the Joint Primary Aircraft
    Training System,” April 12, 2006 (FOUO)

    DoD IG Report No. D-2004-102, “Contracting for and Performance of the C-130J
    Aircraft,” July 23, 2004

    DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
    Aircraft,” March 29, 2004

    DoD IG Report No. D-2004-012, “Sole-Source Spare Parts Procured From an
    Exclusive Distributor,” October 16, 2003

    DoD IG Report No. D-2001-129, “Contracting Officer Determinations of Price
    Reasonableness When Cost or Pricing Data Were Not Obtained,” May 30, 2001




                                       15
                                               Location/                  Contract
                                            Contract Number                Action                 Value                 Item Acquired        MR   CID   PR




                                                                                                                                                                                                     _________________________________________________________
DRAFT REPORT -- FO16




                                                  ARMY




                                                                                                                                                             Appendix C. Contract Actions Reviewed
                                          AMCOM, Redstone
                                          Arsenal, AL
                                          W58RGZ-04-C-0053                  Basic         $      19,380,000.00   T703-AD-700A engines        -    X*    -

                                          CECOM, Fort
                                          Monmouth, NJ
                                          DAAB07-97-D-L021               D.O. 0032               33,370,729.00   DSSMP                       X    X*    -
                                                                          Mod 04
                                                                         D.O. 0034               19,351,839.00   DSSMP                       X    n/a   -




                                                                                                                                                                         and Audit Results
                                                                          Mod 05
                                          DAAB07-97-D-L024               D.O. 0113               16,677,860.00   DSSMP                       X    X*    -
                                          DAAB07-01-D-M010               D.O. 0025               18,302,991.00   Talon radio system          -     -    -
                   R28OFFICIAL USE ONLY




                                          W15P7T-04-D-L205               D.O. 0001               15,004,335.00   Receivers                   -    X*    X
                                  28
                                  28




                                          RDECOM,
                                          Aberdeen Proving
                                          Ground, MD
                                          DAAD13-03-C-0031                 P00011                15,185,637.65   M22 chemical agent alarms   -    X*    X
                                                                           P00017                25,780,966.58   M22 chemical agent alarms   -    n/a   X
                                          DAAD13-03-C-0042                 P00003                22,683,224.00   Emergency responder
                                                                                                                  equipment and training     -     -    -

                                          TACOM, Warren,
                                          MI
                                          DAAE07-00-C-S019                 P00100                21,935,280.00   HMMWV Up-Armor              X    X*    -
                                                                           P00103                35,675,000.00   HMMWV Up-Armor              X    n/a   -
                                                                           P00105                29,185,582.00   HMMWV Up-Armor              X    n/a   -
                                                                           P00107                24,339,643.00   HMMWV Up-Armor              X    n/a   -
                                                                           P00117                55,203,282.00   HMMWV Up-Armor              X    n/a   -
                                           ______________________________
                                           Note: See the footnotes at the end of the appendix.
                                             Location/                 Contract
                                          Contract Number               Action                  Value              Item Acquired       MR   CID   PR




                                                                                                                                                       _________________________________________________________
DRAFT REPORT -- FOR OFFICIAL




                                        DAAE07-00-C-S019               P00127          $    55,950,173.00   HMMWV Up-Armor             X    n/a    -
                                                                       P00143              100,821,742.00   HMMWV Up-Armor             X    n/a    -
                                                                       P00145               93,238,340.00   HMMWV Up-Armor             X    n/a    -
                                        DAAE07-00-D-T021              D.O. 0007             45,156,030.00   RTCH vehicles              X     -     -
                                        DAAE07-01-C-S001               P00156               20,615,114.73   HMMWVs                     X    X*    X
                                                                       P00166               35,964,355.71   HMMWVs                     X    n/a   X
                                                                       P00170               74,360,297.56   HMMWVs                     X    n/a   X
                                                                       P00173               77,582,082.19   HMMWVs                     X    n/a   X
                                                                       P00180               48,981,014.55   HMMWVs                     X    n/a   X
                                                                       P00187               42,409,998.85   HMMWVs                     X    n/a   X
                                                                       P00282               15,526,835.74   HMMWVs                     X    n/a   X
                                                                       P00304               19,575,405.18   HMMWVs                     X    n/a   X
                                                                       P00347               24,502,850.68   HMMWVs                     X    n/a   X
                                                                       P00348              112,891,643.58   HMMWVs                     X    n/a   X
                                                                       P00354               39,571,065.00   HMMWVs                     X    n/a   X
                                                                       P00356               60,161,118.72   HMMWVs                     X    n/a   X
                                                                       P00362               16,887,272.18   HMMWVs                     X    n/a   X
                       17




                                                                       P00377               59,198,313.24   HMMWVs                     X    n/a   X
                                                                       P00387               45,506,724.75   HMMWVs                     X    n/a   X
                                                                       P00447              118,219,740.74   HMMWVs                     X    n/a   X
                                                                       P00560              215,590,917.91   HMMWVs                     X    n/a   X
                                                                       P00572              115,573,952.77   HMMWVs                     X    n/a   X
                             USE ONLY




                                        DAAE07-02-D-S030              D.O. 0002             18,902,375.00   HMMWV engines              X    X*    X
                                        DAAE07-02-D-T031              D.O. 0002             17,924,495.52   HEMTT tires                X    X*    X
                                        DAAE07-03-C-S045                Basic               17,559,040.00   LSB & FBS                  X    X*    X
                                        DAAE07-03-D-S067              D.O. 0001             22,735,671.00   M872A4 trailers             -   X      -
                                        W56HZV-04-C-0355                Basic               20,429,521.11   HMMWV engines              X    X      -
                                        W56HZV-04-C-0439                Basic               25,090,387.20   HMMWV armor kits           X    X      -
                                        W56HZV-04-D-0181              D.O. 0001            120,125,150.07   Iraqi infantry equipment    -    -     -
                                                                      D.O. 0003            123,555,477.60   Iraqi infantry equipment    -   n/a    -
                                          Army Subtotal                  44            $ 2,156,683,475.81                              35   13    24
                                          ______________________________
                                          Note: See the footnotes at the end of the appendix.
                                              Location/                  Contract
                                           Contract Number                Action                Value                 Item Acquired   MR   CID   PR




                                                                                                                                                      _________________________________________________________
DRAFT REPORT -- FOR




                                                 NAVY

                                        NAVAIR, Patuxent
                                        River NAS, MD
                                        N00019-95-C-0209                 P00091          $     42,460,000.00   V-22 engines           X    X     -
                                                                         P00102                50,760,000.00   V-22 engines           X    n/a   -
                                        N00019-01-C-0071                 P00016                61,000,000.00   C-40A aircraft         X    X*    X
                                                                         P00021                62,000,000.00   C-40A aircraft         X    n/a   X
                                        N00019-04-D-0001                D.O. 0003              26,795,298.33   KC-130J spares         X    X*    X

                                        NSWC, Crane, IN
                                        N00164-04-D-4803                D.O. 0001              17,627,380.20   MNVS                   X    X*    X
                18




                                        N00164-04-D-8508                D.O. 0002              15,978,701.97   BNVS                   X    X     -

                                        SPAWAR, North
                    OFFICIAL USE ONLY




                                        Charleston, SC
                                        N65236-04-D-3119                D.O. 0001              15,754,859.00   Satellite terminals    X    X     X

                                        NAVICP,
                                        Philadelphia, PA
                                        N00383-00-D-007J                D.O. 0013              15,730,458.00   APU/TLS                -     -    -
                                                                        D.O. 0014              15,292,174.00   APU/TLS                -    n/a   -
                                        N00383-04-C-008M                  Basic                18,999,184.00   KC-130J engines        -    X     -
                                           Navy Subtotal                   11            $    342,398,055.50                          8     7    5

                                             AIR FORCE

                                        ASC, Wright-
                                        Patterson AFB, OH
                                        F33657-00-C-0018                 P00093          $     17,497,662.00   C-130J QECA            X    X     X
                                                                         P00097                42,656,266.00   C-130J ICS             X    n/a   X
                                        ______________________________
                                        Note: See the footnotes at the end of the appendix.
                                                  Location/                  Contract
                                               Contract Number                Action                  Value                 Item Acquired     MR   CID   PR




                                                                                                                                                              _________________________________________________________
DRAFT REPORT -- FOR OFFICIAL USE ONLY




                                             F33657-00-C-0044                P00020          $       19,300,354.00   C-130J MATS              X    X     X
                                                                             P00023                  23,682,000.00   C-130J MATS              X    n/a   X
                                             F33657-00-D-2118               D.O. 0009                49,509,776.00   T-38 PMP                 -     X    -
                                                                            D.O. 0010                42,399,539.00   T-38 PMP                 -    n/a   -
                                             F33657-01-C-0022                P00011                 169,987,608.00   JPATS                    X    X*    X
                                                                             P00013                  40,122,966.00   JPATS                    X    n/a   X
                                                                             P00037                 227,985,573.00   JPATS                    X    n/a   X
                                                                             P00046                  55,972,029.00   JPATS                    X    n/a   X
                                             F33657-01-C-0025                P00003                  23,696,045.00   TSS                      -     X    -
                                                                             P00008                  19,965,693.00   TSS                      -    n/a   -
                                             F33657-01-D-0013               D.O. 0059                22,425,000.00   C-40/C-32 CESS           X    X*    X
                                                                            D.O. 0061                54,162,908.00   C-40/C-32 IFS            X    n/a   X
                                             F33657-02-C-0006                 Basic                 140,098,476.00   C-17A engines            -     -    -
                                                                             P00001                 306,268,620.00   C-17A engines            -    n/a   -
                                                                             P00002                  29,106,350.00   C-17A engines            -    n/a   -
                                             F33657-02-C-0017                P00014                  18,588,311.00   C-40B/C aircraft lease   X    X*    X
                                             F33657-02-D-2011               D.O. 0031                84,113,017.00   C-37A aircraft           X    X*    X
                                        19




                                                                            D.O. 0032                17,304,602.00   C-37A aircraft           X    n/a   X
                                             F33657-03-D-2051                 Basic                  20,000,000.00   E-10A aircraft           X    X*    X
                                             FA8629-04-C-2350                P00002                  54,280,292.00   MK32B-902E aerial        -     -    -
                                                                                                                      refueling pods/pylons

                                             ESC, Hanscom AFB,
                                             MA
                                             F19628-02-D-0008               D.O. 0003                54,166,543.00   TDC                      -    X     X
                                                                            D.O. 0004                37,061,739.00   TDC                      -    n/a   X
                                                                            D.O. 0007                21,528,056.00   TDC                      -    n/a   X
                                                                            D.O. 0009                16,887,966.00   TDC                      -    n/a   X
                                             F19628-02-D-0009               D.O. 0006                16,112,505.00   TDC                      -    X     -
                                             F19628-02-D-0014               D.O. 0028                23,494,834.00   TCAS/TAWS                -    X     -
                                             F19628-03-C-0043                 Basic                  74,433,113.00   MPN-14K Radar System     X    X     X
                                              ______________________________
                                              Note: See the footnotes at the end of the appendix.
                                                   Location/                   Contract
                                                Contract Number                 Action                 Value                         Item Acquired                   MR              CID        PR




                                                                                                                                                                                                               _________________________________________________________
DRAFT REPORT -- FOR OFFICIAL USE ONLY




                                             FA8726-04-D-0004                  D.O. 0002       $       8,557,531.00          TDC                                       X              X           -

                                             SMC, Los Angeles
                                             AFB, CA
                                             F04701-00-C-0011                   P00050             150,000,000.00            WGS                                       -              X          X
                                              Air Force Subtotal                  31           $ 1,891,365,374.00                                                     16              15         20

                                             Total:                               86           $ 4,390,446,905.31                                                     59              35         49
                                             X Annotates inadequate documentation in the contract file to support decisions made by contracting officials.
                                             * Annotates no documentation was included in the contract file.
                                             n/a Annotates the CID was conducted on the basic contract award; therefore, the modifications and delivery orders were not applicable.


                                             Acronyms and Abbreviations
                                        20




                                             AFB        Air Force Base.                              HMMWV High Mobility Multi-Purpose Wheeled               QECA      Quick Engine Change Assemblies.
                                             ASC        Aeronautical Systems Center.                              Vehicle.                                   RDECOM Research, Development, and Engineering
                                        20




                                             APU/TLS Auxiliary Power Unit/Total Logistics            ICS        Interim Contractor Support.                             Command.
                                                          Support.                                   IFS        Integrated Fleet Support.                    RTCH      Rough Terrain Container Handler.                                                                    AMCOM
                                             Aviation and Missile Command.                           JPATS      Joint Primary Aircraft Training System.      SMC       Space and Missile Systems Center.
                                             BNVS       Binocular Night Vision System.               LSB        Logistics Support Bridge.                    SPAWAR Space and Naval Warfare Systems
                                             CID        Commercial Item Determination.               MATS       Maintenance and Aircrew Training System.                Command.
                                             CESS       Communication Equipment Subscription         MR         Market Research Determination.               TACOM Tank-Automotive and Armament
                                                          Service.                                   MNVS       Miniature Night Vision Sight.                           Command.
                                             CECOM Communications-Electronics Command.               n/a        Not Applicable.                              TAWS      Terrain Awareness and Warning System.
                                             D.O.       Delivery Order.                              NAS        Naval Air Station.                           TCAS      Traffic Alert and Collision Avoidance
                                             DSSMP      Digital Switched System Modernization        NAVAIR Naval Air Systems Command.                                     System.
                                                          Program.                                   NAVICP Naval Inventory Control Point.                   TDC       Theater Deployable Communications.
                                             ESC        Electronics Systems Center.                  NSWC       Naval Surface Warfare Center.                TSS       Tower Simulation System.
                                             FBS        Float Bridge System.                         PMP        Propulsion Modernization Program.            WGS       Wideband Gapfiller Satellite.
                                             HEMTT      Heavy Expanded Mobile Tactical Truck.        PR         Price Reasonableness Determination.
Appendix D. Examples of Major Defense
            Acquisition Programs Acquired as
            Commercial Items
    A Major Defense Acquisition Program is defined in DoD Instruction 5000.2,
    “Operation of the Defense Acquisition System,” as a program which is:

           . . . estimated by the [Under Secretary of Defense for Acquisition, Technology,
           and Logistics] to require an eventual total expenditure for research,
           development, test, and evaluation (RDT&E) of more than $365 million in fiscal
           year (FY) 2000 constant dollars or, for procurement, of more than $2.190 billion
           in FY 2000 constant dollars.

High Mobility Multipurpose Wheeled Vehicle
    The High Mobility Multipurpose Wheeled Vehicle (HMMWV) was developed at
    the Government’s expense starting in 1983 as a replacement for the Jeep.

    The current production contract, DAAE07-01-C-S001, was issued by the Army’s
    Tank-automotive and Armaments Command in November 2000, and is the fifth
    production contract used to acquire HMMWVs.




                   Source: United States Army

                   Figure 1. High Mobility Multipurpose Wheeled Vehicle

    Several HMMWV variants use a common chassis, including cargo/troop carriers,
    armament carriers, ambulance carriers, and shelter carriers. Because of its
    versatility, the HMMWV has become the standard light tactical vehicle within
    DoD. Through June 2005, DoD had acquired more than 150,000 HMMWVs.
    The Army administers the production contract, but the Navy, the Air Force, and


                                             21
the Marine Corps have all used it to obtain HMMWVs. These vehicles have also
been sold to friendly nations through the Foreign Military Sales process.

The commercial variant, originally known simply as the HUMMER®, and more
recently as the HUMMER® H1, was first sold to the public in 1992. In a
May 2006 announcement, General Motors, the owner of marketing rights for the
commercial variant, stated that the HUMMER® H1 would no longer be available
for sale. Prior to being discontinued, the vehicle’s sales occupied only a small
niche in the automotive industry, with sales totaling to approximately 12,000.
During the time it was available for sale to the general public, the
HUMMER® H1 would start on the same assembly line as the military-unique
HMMWV, but then would go to a second assembly line to make it fit for use by
civilians. It was on this second assembly line that such parts as doors, windows,
and a roof were added. There were several other enhancements applied to the
commercial variant as well, including both anti-lock brakes and air conditioning.

We reviewed the production contract described above, as well as four additional
contracts related to the HMMWV.

Contracting officers at TACOM issued contract DAAE07-00-C-S019 to acquire
the Up-Armor applied to HMMWVs. The contractor for contract DAAE07-01-C-
S001, described above, produces the M1114 chassis, which is then provided as
Government-furnished equipment to a second contractor that applies the armor.
The enhanced chassis for the M1114 Extended Capacity Vehicle was developed
to enable the vehicle to perform at an acceptable level after the addition of armor
plating. Armor plating is needed because most HMMWVs contain only
rudimentary protection against rocket propelled grenades and improvised
explosive devices. The armor must be added to the vehicle by the contractor
before the vehicles are delivered to the warfighter.

The Army issued contract W56HZV-04-C-0439 to acquire HMMWV armor kits.
These armor kits are significantly less expensive than the Up-Armor described
above and can be added to the vehicle in-theater. Another benefit is that the kits
can be applied to the unenhanced, baseline HMMWV variant.

Contracting officers at TACOM also issued two contracts, DAAE07-02-D-S030
and W56HZV-04-C-0355, to obtain HMMWV engines.




                                    22
Wideband Gapfiller Satellite
     The Air Force issued contract F04701-00-C-0011 in January 2001 to acquire
     several Wideband Gapfiller Satellites. These satellites are based on the
     commercially available Boeing 702 satellite bus, but, as with all satellites, both
     the bus and the payload are customized to fit the requirements of the customer.

     The basic contract award contained approximately $117 million for nonrecurring
     engineering (research), with options included for up to six satellites. The
     contracting office exercised the options for the first two satellites in January 2002,
     with delivery planned for January 2004, or approximately 24 months after the
     award of the options. That office exercised the option for the third satellite in
     November 2002, with delivery planned for the third quarter of FY 2005.

     According to program officials, the program office had no funding to add to this
     contract during FY 2004, and, as a result, the options for the fourth, fifth, and
     sixth satellites expired before being exercised. The officials also stated that to
     acquire these additional satellites, they would pursue negotiations on a new
     contract, this time under a more traditional FAR Part 15 arrangement. This new
     contract was awarded on February 17, 2006. The basic contract was valued at
     approximately $150 million, and will be used to acquire nonrecurring engineering
     (research) and long-lead parts for the fourth satellite. They also stated the
     satellites themselves will be ordered in the future, based on the availability of
     funding.




                    Source: Boeing Satellite Systems

                    Figure 2. Wideband Gapfiller Satellite

     Despite the award of the most recent contract, the original satellites have not yet
     been delivered. There have been several delays, for different reasons, the most


                                            23
recent of which moved the anticipated launch of the first satellite to June 2007.
The launches of the second and third satellites have been delayed until
December 2007 and May 2008, respectively.




                                     24
Joint Primary Aircraft Training System
    The Aeronautical Systems Center issued contract F33657-01-C-0022 on
    December 28, 2001, for the production of T-6A Texan II aircraft, as well as
    associated ground-based training systems, for use by the Air Force’s Air
    Education and Training Command.

    The current contract is the third used to acquire these aircraft. The contracting
    office issued the first contract under FAR Part 15, “Contracting by Negotiation,”
    for Lot 1 through Lot 8, to fulfill a joint Air Force-Navy requirement. In
    December 2000, the contracting office removed Lots 7 and 8 from the original
    FAR Part 15 contract and placed them onto a new FAR Part 12 contract, at the
    direction of the then Principal Deputy Assistant Secretary of the Air Force for
    Acquisition and Management.




                   Source: United States Air Force

                   Figure 3. Joint Primary Aircraft Training System

    The current contract was issued to acquire Lot 9 and included options for Lots 10
    through 13. This contract was issued under FAR Part 12, following the precedent
    set with Lots 7 and 8. The unit prices for the aircraft increased substantially
    between Lot 8 and Lot 9.
    Each lot corresponds to the deliveries to be made in a particular year, with Lot 13
    being acquired during FY 2006. Recently, in its response to another DoD IG
    audit, the Air Force stated that it intends to pursue a more traditional FAR Part 15
    contract to satisfy any future requirements for this system.

    [NOTE: More in-depth coverage of this program is provided in DoD IG report,
    “Acquisition of the Joint Primary Aircraft Training System” (DoD IG Report
    No. D-2006-075), issued on April 12, 2006.]




                                           25
C-130J Hercules Cargo Aircraft
    The C-130J is the latest addition to the C-130 fleet, entering service in
    February 1999. It incorporates state-of-the-art technology that is intended to
    reduce manpower requirements, lower operating and support costs, and provide
    life-cycle cost savings over earlier C-130 models.




                  Source: United States Air Force

                  Figure 4. C-130J Hercules Cargo Aircraft

    Since the contract used to produce C-130J aircraft was recently reviewed in-depth
    during another DoD IG audit, we did not review any actions used to produce the
    aircraft. Instead, we reviewed contract actions used to acquire other, associated
    items, such as contractor logistics support, engines, training systems, and spare
    parts.

    The Air Force used contract F33657-00-C-0018 to acquire two different items.
    They issued modification P00093 to acquire Quick Engine Change Assemblies,
    while they used modification P00097 to acquire Contractor Logistics Support.
    The same contracting office issued two modifications, P00020 and P00023, on
    contract F33657-00-C-0044 to obtain Maintenance Aircrew Training Systems.
    Two Navy contracting offices used commercial contracts to acquire items related
    to the KC-130J variant used by the Marine Corps. The Naval Air Systems
    Command used contract N00019-04-D-0001 to obtain spare parts for this aircraft,
    while the Naval Inventory Control Point, Philadelphia, used contract N00383-04-
    C-008M to obtain engines for these aircraft.

    Section 135 of the National Defense Authorization Act for Fiscal Year 2006
    (Public Law 109-163) contained a provision that required the Air Force to use
    FAR Part 15, rather than Part 12, for the acquisition of any C-130J aircraft
    acquired after FY 2005. This new requirement only applies directly to the C-130J
    aircraft; we are not aware of any plans by either the Air Force or the Navy to
    review the use of FAR Part 12 for the other, related contracts described above.


                                          26
[NOTE: More in-depth coverage of the C-130J program is provided in DoD IG
Report No. D-2004-102, “Contracting for and Performance of the C-130J
Aircraft,” July 23, 2004. See also DoD IG Report No. D-2006-093, “Contracting
and Funding for the C-130J Aircraft Program,” June 21, 2006, which addresses a
set of allegations provided to the Defense Hotline regarding the C-130J program.]




                                   27
Engines for the V-22 Osprey Joint Advanced Vertical
  Lift Aircraft
     The Naval Air Systems Command is responsible for issuing contracts related to
     the acquisition and maintenance of both variations of the aircraft, the MV-22
     aircraft operated by the Marine Corps, and the CV-22 aircraft used by the Air
     Force for special operations missions.




                   Source: United States Navy

                   Figure 5. V-22 Osprey Joint Advanced Vertical Lift Aircraft

     While the V-22 Osprey aircraft has not, in its entirety, been determined to be a
     commercial item, the program office has determined that the engines attached to
     the aircraft (a subsystem) are commercial items, and has used contract N00019-
     95-C-0209 to acquire them.




                                          28
Engines for the C-17A Globemaster III Advanced
  Cargo Aircraft
    The C-17A Globemaster III is the newest cargo aircraft to enter the airlift force.
    It is capable of rapid strategic delivery of troops and all types of cargo to main
    operating bases or directly to forward bases in the deployment area. The aircraft
    is powered by four, fully reversible, Federal Aviation Administration-certified
    F117-PW-100 engines, the same engine currently used on the Boeing 757.




                   Source: United States Air Force

                   Figure 6. C-17A Globemaster III Advanced Cargo Aircraft

    Contract F33657-02-C-0006 was issued to obtain these engines. We reviewed the
    basic contract and two modifications, P00001 and P00002.




                                           29
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Director, Program Analysis and Evaluation
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          30
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        31
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
                                              Final Report
                                               Reference




                       32
Final Report
 Reference




Revised




               33
     Final Report
      Reference




34
Team Members
The Acquisition and Contract Management Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Rudolf Noordhuizen
Chrispian M. Brake
George Ford
Patrick Sampson
Amber M. Lyons
Meredith Johnson
